CERTIFICATE OF COMPLIANCE

No. 07Wendy Marie Meigs,
Petitioner
v.
Trey Bergman and Bergman ADR Group,
Respondents

As required by Supreme Court Rule 33.1(h), I certify that the
petition for writ of certiorari contains 2701 words, excluding the
parts of the petition that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on September 2nd, 2021.

/s/ Wendy Meigs
Pro-se
3131 Blackcastle Dr.
Houston, Texas 77068
281-798-0780

